<html>
<title> - METAL THEFT: PUBLIC HAZARD, LAW ENFORCEMENT CHALLENGE</title>
<body><pre>[Senate Hearing 111-238]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-238

         METAL THEFT: PUBLIC HAZARD, LAW ENFORCEMENT CHALLENGE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2009

                               __________

                          Serial No. J-111-38

                               __________

         Printed for the use of the Committee on the Judiciary








                  U.S. GOVERNMENT PRINTING OFFICE
54-558 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY O. GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
                  Matt Miner, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 ARLEN SPECTER, Pennsylvania, Chairman
HERB KOHL, Wisconsin                 LINDSEY O. GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JEFF SESSIONS, Alabama
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
BENJAMIN L. CARDIN, Maryland
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
               Hanibal Kemerer, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel










                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......     4
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..     1

                               WITNESSES

Coffey, Frank, Director, Critical Infrastructure, Qwest 
  Communications, Denver, Colorado...............................     9
Dohman, Mona, Chief of Police, City of Maple Grove, Minnesota....     6
Kennard, Aaron D., Executive Director, National Sheriffs' 
  Association, Alexandria, Virginia..............................    10
Lewon, Mark, vice President for Operations, Utah Metal Works, 
  Salt Lake City, Utah, on behalf of Utah Metal Works and the 
  Institute of Scrap Recycling Industries, Inc...................    14
Sparby, David M., President and Chief Executive Officer, Northern 
  States Power-Minnesota, on behalf of Xcel Energy and Edison 
  Electric Institute, Minneapolis, Minnesota.....................    13

                       SUBMISSIONS FOR THE RECORD

Coalition Against Copper Theft, Washington, DC., statement.......    24
Coffey, Frank, Director, Critical Infrastructure, Qwest 
  Communications, Denver, Colorado, statement....................    26
Dohman, Mona, Chief of Police, City of Maple Grove, Minnesota, 
  statement......................................................    35
Kennard, Aaron D., Executive Director, National Sheriffs' 
  Association, Alexandria, Virginia, statement...................    38
Lewon, Mark, vice President for Operations, Utah Metal Works, 
  Salt Lake City, Utah, on behalf of Utah Metal Works and the 
  Institute of Scrap Recycling Industries, Inc., statement.......    44
Poehling, Joe, Chairman, First Supply LLC, and President, 
  American Supply Association, Washington, DC., statement........    54
Sparby, David M., President and Chief Executive Officer, Northern 
  States Power-Minnesota, on behalf of Xcel Energy and Edison 
  Electric Institute, Minneapolis, Minnesota, statement..........    56

 
         METAL THEFT: PUBLIC HAZARD, LAW ENFORCEMENT CHALLENGE

                              ----------                              


                        WEDNESDAY, JULY 22, 2009

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Amy 
Klobuchar, presiding.
    Present: Senators Klobuchar and Hatch.

 OPENING STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM 
                     THE STATE OF MINNESOTA

    Senator Klobuchar. All right. We are going to call this 
hearing to order. Good afternoon, everyone, and thank you for 
being here. Today's hearing will examine the problem of metal 
theft in our country, the public hazards that this crime 
creates, and the challenges facing law enforcement as they 
attempt to combat this crime.
    I am pleased to be here with my colleague Senator Hatch, 
and I want to thank Senator Specter, who chairs the Crime and 
Drug Subcommittee, for allowing me to chair this Subcommittee 
hearing today.
    I also want to thank--there are a number of Minnesotans 
here that you will hear from. I think someone even brought 
their family, I heard, so we are making this into a family 
affair. But I want to thank them for coming as well.
    I am going to let Senator Hatch start with opening remarks, 
and then I have a few myself.
    Senator Hatch.
    Senator Hatch. You go ahead, Madam Chair.
    Senator Klobuchar. OK, Senator Hatch. I always defer to the 
senior Senator here.
    Today we have a hearing with three goals: The first is to 
review the scale and scope of the metal theft problem as a 
criminal problem; we want to assess the threat that it poses to 
public safety and our critical infrastructure; and we want to 
consider possible legislative solutions to the problem and hear 
new recommendations and suggestions, especially from the law 
enforcement community.
    Over the past decade, the price of so-called secondary 
metals, especially copper, has risen dramatically. Between July 
1999 and July 2008, the price of copper increased five-fold, 
and some began calling copper ``the red gold.'' The price 
increases were largely due to increased global demand, 
especially from China and India, combined with speculation that 
demand would grow.
    As a result, ever enterprising thieves discovered a new 
opportunity for crime. They would steal copper and, through a 
process that might be called ``criminal alchemy,'' converted it 
into instant cash by reselling to scrap metal dealers who were 
hungry to meet the market demand for copper. Some of these 
thieves are drug addicts desperate to feed their addiction, but 
some are much more sophisticated and operate in organized 
groups.
    As a prosecutor, I learned never to underestimate the 
ingenuity and adaptability of these criminals. Copper thieves 
have targeted construction sites, electrical substations, and 
transformers, power and phone lines, warehouses, retail stores 
like Home Depot, and vacant houses and buildings.
    Although copper is often the metal of choice, aluminum 
siding, stainless steel sinks, and even catalytic converters on 
cars have also become common targets. Copper prices have 
declined somewhat in the past year due to the economy, but they 
are still 3 times higher than a decade ago. And having 
discovered an easy opportunity, copper thieves are unlikely to 
just go away, especially when the long-range outlook is for 
metal prices to rise as the world economy rebounds.
    Copper theft knows no borders or boundaries. It happens in 
cities and suburbs and in rural areas. It happens across 
county, State, and even national lines. The common denominator 
is the threat that it poses to public safety and to our 
infrastructure.
    In some instances, the theft of copper pipes has led to 
house fires and explosions. This, in fact, has happened several 
times in Minneapolis in recent years. Last September, I stood 
on a vacant lot on a street corner in Minneapolis where only 
days earlier there had been a four-plex. It was not there 
anymore because it had blown up, literally. Someone had stolen 
the copper pipes, causing a natural gas leak. Fortunately, 
nobody was in the building at the time that it blew up.
    Two years ago, in Ohio, thieves removed 300 feet of copper 
wire from a Federal Aviation Administration tower which 
threatened to interrupt communications between in-flight 
aircraft and air traffic controllers.
    Last year, in Jackson, Mississippi, five emergency warning 
sirens were unable to warn residents of an approaching tornado 
because thieves had stripped the sirens of the copper wiring.
    As with many property crimes, a perpetrator can sometimes 
be an insider. For example, just a few months ago, a Minnesota 
man was charged with stealing more than $300,000 worth of 
copper wire from his employer, Xcel Energy. Over the course of 
3 years, this truck driver would secretly take copper wire from 
a warehouse in Maple Grove--where Chief Dohman is the police 
chief--a Minneapolis suburb, and then sell it to a recycling 
company in Grand Rapids, about 3 hours north of the Twin 
Cities.
    There are stories like these from all over the country. 
Last year, the FBI prepared an intelligence assessment on 
copper theft and the threat to critical infrastructure. It 
concluded that copper thieves are threatening U.S. critical 
infrastructure by targeting electrical substations, cellular 
towers, telephone land lines, railroads, water wells, 
construction sites, and vacant homes for lucrative profits. The 
FBI further concluded that the theft of copper from these 
targets disrupts the flow of electricity, telecommunications, 
transportation, water supply, heating, and security and 
emergency service, and presents a risk to both public safety 
and national security.
    The Electrical Safety Foundation International conducted a 
survey last year of power utilities. The utilities reported 
that during the previous 12-month period, more than 50,000 
copper thefts had occurred. In addition to the tens of millions 
of dollars in lost property, the utilities reported that copper 
thefts caused power outages totaling more than 450,000 minutes. 
The incidences, according to this report, also resulted in 52 
injuries and 35 deaths nationwide.
    Industry officials have taken various countermeasures to 
address the growing metal theft problem. These include security 
systems on perimeter fences, clearing foliage away from fences, 
increasing security lighting, and installing video.
    In recent years, a number of States have also taken action, 
passing legislation to impose tougher penalties and to regulate 
the scrap metal industry with increased recordkeeping and other 
requirements. My own State of Minnesota has passed one of the 
strictest laws in the country, calling on scrap metal dealers--
many of whom we know are very good business people simply doing 
their jobs. But we have called on them to register with the 
State, to video-record all purchase transactions, and to pay 
sellers by check rather than by cash.
    I commend these State efforts. However, the reality is that 
copper theft is a national problem and, as such, we need to be 
thinking about national solutions.
    Senator Hatch and I have introduced a bill that would place 
modest but important recordkeeping requirements on metal 
dealers in order to deter copper thefts by making it more 
difficult for thieves to sell the stolen property. Among other 
things, this bill would require scrap metal dealers to keep 
records for 2 years of transactions involving wire or cables 
commonly used by communications and electrical utilities, as 
well as copper, aluminum, or other metal that is valuable for 
recycling or re-use as raw material. It would also require 
dealers to pay sellers by check for any transactions above $75. 
Finally, it would establish a Do Not Buy list that prohibits 
scrap metal dealers from purchasing certain types of material 
unless the seller can establish that the seller is the rightful 
owner. This includes things like metal marked with the name of 
a city or marked with a name logo or initials of a railroad, 
utility, or telephone company. These requirements are important 
both to deter metal thieves and to apprehend them.
    As I mentioned, the vast majority of scrap metal dealers 
are perfectly legitimate and law-abiding. We are glad that 
their association is here to testify. They do not want to buy 
stolen property or damage infrastructure in their communities. 
But given the scale of the problem, voluntary efforts just are 
not sufficient to deter or to prevent this crime. If they were, 
we would not be here today.
    To effectively attack the problem, we also need national, 
State, and local officials, law enforcement authorities, and 
industry to work together to assess the tools they need to more 
effectively combat these crimes. Sometimes a theft may seem 
small and the owner does not report it as a crime, even though 
the individual theft may well be just the tip of a much larger 
criminal iceberg. Even when copper thefts are reported, they 
may not get adequate attention from law enforcement agencies 
because they are focused on violent crimes. When someone is 
actually caught selling what is suspected to be stolen copper, 
it can be very difficult to work up a prosecutable case unless 
the source of the metal can be determined.
    Finally, another complicating factor is that thieves do not 
care about jurisdictional boundaries so they cross city, 
county, and State lines with impunity to do their business of 
stealing and selling.
    In this situation, it is very difficult for individual law 
enforcement agencies to get a handle on a pattern of thieves. 
It is a situation that cries out for multijurisdictional law 
enforcement efforts. These challenges underscore the need for 
law enforcement to have a central role in preventing, 
investigating, and prosecuting these crimes. After all, metal 
theft is a crime. It is a crime that has been on the rise and 
promises to get even bigger. And it has become a serious 
nationwide problem with potentially dangerous and far-reaching 
consequences.
    If copper has become the red gold, then copper theft has 
turned into a kind of ``red gold rush.'' So it is essential 
that law enforcement is able to keep up and not get left behind 
in the dust. An effective strategy to combat these crimes will 
require cooperation that involves scrap and recycling dealers, 
affected industries like telecom, railroads, and electric 
utilities, and local law enforcement, State law enforcement, 
and Federal law enforcement.
    I look forward to hearing from our witnesses and working 
together to develop and implement a nationwide metal theft 
prevention strategy. Thank you very much, and I will turn this 
over to Senator Hatch.

STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM THE STATE 
                            OF UTAH

    Senator Hatch. Well, thank you, Chairperson Klobuchar. I 
have enjoyed working with you on this legislation designed to 
combat metal theft. I applaud your leadership and tenacity on 
this important issue, because it is important. And, of course, 
today's hearing is an excellent opportunity to hear from the 
experts on the growing problem of metal theft in our country.
    Unfortunately, over the past couple of years, metal has 
become a favorite target for crooks. It is truly a perfect 
storm for people looking to make a quick buck, primarily for 
drugs, because it is easy to steal and resell these materials. 
The scrap metal industry is no longer confined to aluminum 
cans. It has become a major industry, with all types of metal 
being bought and sold.
    On the surface, stealing metal appears to be a relatively 
small theft. However, metal thieves compromise U.S. critical 
infrastructure by targeting electrical substations, cellular 
towers, light fixtures, telephone land lines, railroads, water 
wells, construction sites, and even vacant homes.
    We simply must ensure that our Nation's businesses, homes, 
and infrastructure are no longer viewed as a treasure trove by 
desperate metal thieves who destroy property while taking the 
opportunity to turn stolen property into a profit.
    Metal theft is costing Americans millions of dollars in 
theft, damages, and threats to safety. In Utah, metal theft is 
a major problem that is growing without a foreseeable end in 
sight. We have experienced a wide variety of thefts, including 
stolen copper wire, catalytic converters, manhole covers, and 
other metals. Last fall, a baseball field in Kearns, Utah, was 
the target. A thief cut into several light poles, yanked the 
copper wire down, sliced it, and hauled it off. This senseless 
act resulted in costly infrastructure damage, leaving taxpayers 
to foot the bill for repairs. Furthermore, the city's 20-team 
baseball league could not continue to play night games on the 
field without lights.
    Earlier this year, thieves stolen copper wiring from the 
Vista Park light poles in Taylorsville, Utah. Salt Lake County 
cannot afford the $10,000 to rewire the complex. Fortunately, 
some very generous donors rewired and reconnected the complex 
so that the local Little League team could enjoy playing ball 
under the night lights.
    One of Utah's city park operators informs me that, in 
addition to light fixtures, metal thieves are damaging restroom 
pipe chases and stealing aluminum bleachers at local basketball 
fields--or baseball fields, I guess it would be. He believes 
the ease with which stolen metals can be exchanged for cash is 
the main reason for this crime wave.
    Now, several months ago, in Ogden, Utah, thieves stole a 
1,700-pound load of copper from the metal yard, apparently 
using the metal company's own Caterpillar excavator to load it 
onto their truck. I am aware of another occurrence in Utah 
County, where a man was arrested for repeatedly stealing copper 
wiring nearly every week from a construction company. The thief 
would load his truck with the wire, then sell it for anywhere 
between $800 and $1,200. The actual value of the wire, however, 
was more than $18,000.
    Unfortunately, the list is long for metal thefts in my home 
State. We can and must do more to eliminate the incentives that 
fuel such blatant criminal activity, and I believe the proposed 
legislation goes a long way in accomplishing this goal, but we 
look forward to hearing your testimonies today to just see what 
we can do to improve this or change it.
    I commend them for their efforts and hope that police, 
prosecutors, and members of the metal recycling industry 
continue to communicate and work together to combat metal 
theft. However, I do believe more has to be done. Some argue 
that there is no need for this legislation because metal is 
currently being traded at low prices. I disagree. As we know, 
the market shifts and prices will eventually increase as demand 
surges, and law enforcement officials say that they expect 
thefts will start up again as prices rebound.
    Many States already have metal theft laws in place. Utah is 
one of them. In fact, metal theft was such a problem in my home 
State that laws were passed imposing a strict requirement on 
scrap metal dealers for buying secondary metal. Yet on the 
Federal level, we need a uniform standard to fill the gaps 
where State law falls short or where there is no applicable 
State law. This is important because States without metal theft 
laws become havens for trafficking in stolen metal.
    So I look forward to our hearing today, and I look forward 
to listening to our witness panel on ways we can protect our 
country and, of course, perfect our legislation. Particularly, 
what other steps are needed to help law enforcement combat the 
pervasive spread of metal theft? And how should we change this 
bill to make it better and more workable? As you can see, both 
Senator Klobuchar and I take this issue very seriously.
    So I want to thank you, Madam Chairperson, and I am just 
grateful that you are willing to lead out on this issue.
    Senator Klobuchar. Thank you very much, Senator Hatch, and 
it is always good to do things on a bipartisan basis around 
here, and I am glad we are doing that.
    I just wanted to quickly introduce the witnesses, and then 
they can each speak up to 5 minutes, and then we will have 
questions.
    First is Chief Mona Dohman, whom I worked with extensively 
when I was the county attorney for Hennepin County. She is here 
today in two capacities: first, as Chief of Police for Maple 
Grove, Minnesota, which is a sizable suburb in the Twin Cities 
area, and also as President of the Minnesota Chiefs 
Association.
    Second, Frank Coffey. Frank serves as Director of Critical 
Infrastructure for Qwest Communications. Before joining Qwest, 
Mr. Coffey worked for the FBI for over 25 years.
    We also have Sheriff Aaron Kennard, who is the Executive 
Director of the National Sheriffs' Association, and is the 
former sheriff of Salt Lake City, Utah.
    David Sparby, who is the President and Chief Executive 
Officer of the Northern States Power Company of Minnesota, 
which is an Xcel Energy company. Mr. Sparby joins us today both 
on behalf of Xcel as well as on behalf of Edison Electric 
Institute, the trade son of U.S. shareholder-owned electric 
companies.
    Finally, Mark Lewon, Vice President for Operations of Utah 
Metal Works in Salt Lake City, a family-owned business started 
by Mr. Lewon's grandfather in 1955.
    Thank you all for joining us, and we will start with Chief 
Dohman.

STATEMENT OF MONA DOHMAN, CHIEF OF POLICE, CITY OF MAPLE GROVE, 
                           MINNESOTA

    Chief Dohman. Good afternoon, Senator Klobuchar and Senator 
Hatch. I am honored and pleased to be here this afternoon to 
testify on the need for Federal legislation to fight the 
continued growing problem of metal theft in Minnesota and 
across the country. My name is Mona Dohman, and I am the Chief 
of Police for the city of Maple Grove in Maple Grove, 
Minnesota. We are a third-ring suburb of Minneapolis with 
approximately 62,000 residents. I am also the President of the 
Minnesota Chiefs of Police Association, a State association 
with a mission to enhance the professionalism of policing 
throughout our State. I am here to speak on behalf of metal 
theft crimes in our and across the State. In particular, my 
testimony is from a local law enforcement perspective.
    In each of my roles, I have seen firsthand and read about 
the negative and devastating impact that metal theft has had in 
our community and in the infrastructure around the country. I 
would like to share just a few examples of the results of metal 
thefts in our communities.
    In Minnesota, we are, as Senator Klobuchar alluded to, 
fortunate that we have tighter restrictions and regulations on 
scrap metal dealers. However, metal thieves do not have to 
travel very far to cross State borders in order to sell stolen 
metals and in order to get quick cash to support the habits 
that they have, whether it be drug addiction or perhaps a 
gambling addiction.
    The Minnesota Chiefs of Police Association supported 
tougher laws and restrictions on scrap metal dealers and were 
instrumental in helping pass laws that provided for the same. 
We support similar Federal legislation.
    In 2008, again, as alluded to by Senator Klobuchar, the 
Grand Rapids, Minnesota, Police Department investigated a case 
in which a 46-year-old truck driver was stealing copper from 
the Xcel Energy Center in Maple Grove. The suspect in the case 
stole copper and then sold it to a metal recycler in Grand 
Rapids over a period of 3 years. The suspect's full-time job 
was to deliver copper wire to various sites around the State. 
He was able to steal the copper wiring in smaller amounts and 
obtain quick cash at a metal recycling center. He had developed 
a relationship with the owner of the business. It is suspected 
that the man was supporting a gambling addiction, and over the 
course of a 3-year period, he stole over $300,000 in copper 
wiring. Because the thefts occurred in smaller amounts and over 
a long period of time, they went unreported and unnoticed for a 
while.
    In June of 2008, detectives at my police department 
investigated a report of over $10,000 worth of stolen copper 
wiring and various metal pieces from a hotel construction site. 
In further investigating our case, we were able to identify a 
suspect who was described by acquaintances as being ``hard 
core,'' ``big into copper theft,'' and ``big into meth use.'' 
We were informed that he never worked alone and would pay 
others to make his copper deposits for him. He had essentially 
developed an organized crime ring on a smaller level in the 
State. We know that he committed his crimes across our State 
from as far north as Two Harbors, Minnesota, in the far 
northeastern corner of our State, all the way south to 
Farmington, Minnesota, in the southern part of our State.
    In September 2008, a vacant North Minneapolis four-plex 
exploded after thieves took copper pipes out of the home. The 
threat to public safety in cases like this is of great concern.
    We know that in Jackson, Mississippi, five tornado warning 
sirens did not warn residents of an approaching tornado because 
of copper thieves. They had stripped the sirens of copper 
wiring.
    And in March of 2008, nearly 4,000 residents in Polk 
County, Florida, were left without power after copper wire was 
stripped from an active transformer at an electric company. And 
we know from FBI reports that farmers in Pinal County, Arizona, 
were the victims of copper thefts from their irrigation 
systems, resulting in the loss of crops and high-dollar cost to 
replace the equipment. The infrastructure loss in that case and 
in that county due to copper thefts was estimated at $10 
million.
    We know that there is typically a common thread in most 
cases of scrap metal. We believe that drug addiction, gambling 
addictions, or the like are the common themes. Trading in scrap 
metals for quick cash at metal recycling centers is the reason 
that this is a lucrative business.
    Investigation and prosecution can be very time-consuming 
due to the lack of evidence and very few leads, thus absorbing 
sometimes scarce resources of officer time and money from the 
jurisdictions responsible for investigating the case.
    We know from our case in Maple Grove and many cases around 
the country that the thieves do not work alone. Identifying all 
parties involved can be very difficult. As recently as April of 
2008, we know that highly organized theft rings specializing in 
copper theft from houses and warehouses were operating in 
Minneapolis, Minnesota. It is reported that these rings or 
gangs hit several homes per day, yielding more than $20,000 per 
month. Their target was foreclosed homes. As recent as 2007, 
the St. Paul, Minnesota, Police Department reported that 60 
percent of all burglaries were for scrap metal. Burglaries 
overall are down currently in St. Paul, but it is reported that 
almost 40 percent of their burglaries in 2008 were from scrap 
metal.
    I have shared some of the larger-dollar-loss cases from 
around the country. However, I believe it is important to 
mention that many times these cases can be difficult to 
investigate and ultimately prosecute because the thefts can 
occur in small amounts, thus victims either do not realize 
their victimization or because of such small amounts they do 
not feel it is necessary or important to file a police report. 
And it is difficult to prosecute a case when there is no 
victim.
    If we pass laws on the Federal level to help, then we are 
recognizing the negative impact that these crimes have in our 
communities and the infrastructures within. These crimes are 
frequently viewed as low priority when we think about how they 
measure up to crimes such as murder, robbery, and rape, for 
example. I can tell you, though, in over 27 years in law 
enforcement I have seen that these sorts of crimes all overlap. 
Certain crime can be and is a gateway to farther reaching and 
more severe crime, having devastating impacts within our 
communities.
    We know that once the thieves steal the metal, it does them 
no good if they cannot sell it. The Klobuchar-Hatch bill puts 
recordkeeping requirements on scrap yards and metal dealers, 
and I believe it is an effective step in deterring this crime.
    I believe that if drug users, gang members, and/or the 
middleman must give certain basic information like a driver's 
license or a Government ID to a scrap metal dealer, it will 
deter these criminals from this avenue of access to quick cash. 
Trading in scrap metal for quick cash is the reason these 
criminals commit this crime. If we take away their access by 
regulating the process in which they cash in on their crime and 
by regulating the amount of cash they get on the spot, their 
crime becomes less attractive and certainly less lucrative.
    I know and we know that the recordkeeping and retention 
requirements in the Klobuchar-Hatch bill will not end all metal 
theft across the country, but it is a positive, proactive step 
to helping law enforcement as we strive to reduce victimization 
across the board in our communities.
    In conclusion, we in Minnesota have been fortunate with 
tough State laws and regulations to address metal theft, and we 
have witnessed firsthand how they have assisted law enforcement 
in investigating and prosecuting metal theft crimes. However, 
to effectively stem metal theft across the country, Congress 
must act to ensure that these crimes do not find their way into 
other States. Minimum Federal requirements as identified in the 
proposed bill must be implemented to assist in our law 
enforcement efforts.
    Thank you.
    [The prepared statement of Chief Dohman appears as a 
submission for the record.]
    Senator Klobuchar. Thank you.
    Mr. Coffey.

 STATEMENT OF FRANK COFFEY, DIRECTOR, CRITICAL INFRASTRUCTURE, 
             QWEST COMMUNICATIONS, DENVER, COLORADO

    Mr. Coffey. Senator Klobuchar, Senator Hatch, and members 
of the Subcommittee, my name is Frank Coffey, and I am the 
Director of Critical Infrastructure for Qwest Communications. I 
appreciate the opportunity to talk about the issue of metal 
theft and to share Qwest's views on your proposed legislation 
addressing the problem.
    Qwest provides voice, data, Internet, and video services 
nationwide and globally. We provide local telephone service and 
broadband service in 14 Midwestern and Western States. Like 
other companies, Qwest has been plagued by the theft of metal, 
particularly copper, during the past few years. In some cases, 
thieves literally cut down or dig up our telephone lines and 
then attempt to sell the copper.
    A 2007 Department of Energy study identified several 
factors contributing to the increase in copper theft, including 
historically high prices for copper, ease of theft, small 
likelihood of being arrested, and relatively low penalties for 
the few who are convicted.
    The impact of stolen cable to Qwest and its customers goes 
well beyond just the cost of the stolen cable. Most 
importantly, community safety is compromised when deployed 
lines are cut, causing outages that impact a citizen's ability 
to contact emergency services, as well as to make other phone 
calls and use the Internet.
    While the copper theft problem occurs throughout the Qwest 
region and the country, I thought it would be useful to provide 
you with a few specific examples of the problem and its 
consequences.
    In May 2008, thieves in Duluth, Minnesota, stole 1,400 feet 
of aerial copper cable, disrupting service to many customers. 
Service was restored, and 10 days later, thieves stole the same 
span of cable, disrupting service for a second time to the same 
customers.
    Another example: In January 2008, cable thieves in 
Longview, Washington, cut and stole aerial cable, impacting 
emergency 911 and other services in the area. The thieves 
transported the stolen copper cable to Oregon to sell to 
secondary metal recycling agents, as Oregon laws regulating 
metal recyclers at that time were weak or non-existent. 
Notably, the thieves burned the insulation off of the cable 
before selling it. Despite the suspicious circumstances, 
neither federal nor state law prohibited the metal recyclers 
from purchasing the significant quantities of cable with the 
insulation burned off or required them to report the 
transactions.
    Also, in Washington, in two instances, thieves cut fiber-
optic cable, believing it was copper cable, which disrupted 
service to approximately 20,000 customers for several hours 
each time.
    A final example. In December 2007, Qwest experienced 
several thefts of copper cable from one of our facilities in 
Prescott, Arizona, and through investigation discovered that 
three employees of a road construction crew were removing and 
selling Qwest cable that was inactive but left in place for 
future use. The thieves were prosecuted in state court for 
stealing 23,000 pounds of Qwest copper cable.
    In light of such incidents, Qwest has developed a copper 
theft strategy which includes working with law enforcement 
agencies, employing security firms to conduct patrols in high-
theft areas, developing relationships with metal recyclers, 
participating in law enforcement metal theft task forces, and 
supporting enhanced metal theft legislation.
    Many states, including Minnesota and Utah, have enacted 
laws addressing the metal theft problem, but not all states 
have such laws. Federal legislation would provide uniform 
requirements applicable in all states.
    Law enforcement intervention has been helpful as we have 
sought to address this problem. Unfortunately, many local law 
enforcement agencies do not have the resources available to 
adequately investigate these thefts. Qwest believes the 
proposed legislation will deter thieves by diminishing the 
marketability of stolen copper and helping to track down and 
prosecute sellers of stolen metal.
    To strengthen the law further and to serve as an additional 
deterrent, we recommend an additional provision requiring that 
check payments be mailed to the seller, which would further 
limit the ability of thieves to provide fictitious data to the 
metal recycler. We also recommend the addition of criminal 
penalties for those attempting to sell stolen metal to a metal 
recycler.
    Congress has an important opportunity to deter the theft of 
metal and reduce its impact on businesses across the nation and 
the communities they serve.
    Again, thank you for your attention to this problem and for 
the opportunity to testify today on this important issue. I 
look forward to your questions.
    [The prepared statement of Mr. Coffey appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much.
    Sheriff Kennard.

  STATEMENT OF AARON D. KENNARD, EXECUTIVE DIRECTOR, NATIONAL 
          SHERIFFS' ASSOCIATION, ALEXANDRIA, VIRGINIA

    Mr. Kennard. Thank you. Good afternoon, Chairman Senator 
Klobuchar and Senator. My name is Sheriff Aaron Kennard, and I 
currently serve as the Executive Director of the National 
Sheriffs' Association. Immediately prior to joining NSA, I 
served as the Sheriff of Salt Lake County for 16 years and as a 
police officer for Salt Lake City Police Department for 20 
years, including as interim Police Chief of the Salt Lake 
International Airport in the mid-1980's when I experienced a 
major metal theft.
    I am pleased to have this opportunity to appear before you 
today to highlight the need for Federal legislation to combat 
metal theft, namely, S. 418, the Secondary Metal Theft 
Prevention Act of 2009, and to provide a law enforcement 
perspective on this costly and hazardous crime.
    Metal theft has become a serious public safety issue not 
just in Utah but across the country as thieves become more and 
more reckless in the materials they go after. This costly crime 
has plagued both urban and rural communities in recent years. 
Metal thieves compromise U.S. critical infrastructure by 
targeting electrical substations, cellular towers, telephone 
land lines, railroads, water wells, construction sites, and 
vacant homes--all for quick cash.
    Throughout the country, law enforcement officers have 
witnessed thefts in which culprits steal metal, everything from 
old grave markers to parts of air conditioning units or 
vehicles, to resell as scrap. Furthermore, these crimes and 
criminals are oftentimes associated with other violent crimes, 
illicit activities and drug abuse.
    I have experienced firsthand that, when it comes to metal 
theft, officers have little to go on unless they catch a metal 
thief in the act. We strongly believe that the requirements of 
this act would greatly enhance law enforcement's ability to 
investigate and prosecute metal theft by creating a paper 
trail.
    The requirement of checks and recordkeeping is a valuable 
tool for law enforcement in our investigations of metal theft 
as it helps close the loop in enabling criminals to ``take the 
money and run'' without creating a paper trail, thereby making 
it extremely difficult for law enforcement to identify and 
apprehend those responsible for the theft.
    A simple thumbprint on a check can help investigators crack 
a case identifying a suspect with a prior record. And the mere 
fact that those reporting requirements exist we believe would 
prove to be a valuable anti-metal theft tool.
    In addition to the requirements provided in Senate 418, we 
would like to make additional recommendations for the Committee 
for its consideration that we believe would be of tremendous 
assistance to law enforcement in combating metal theft. These 
recommendations include the following:
    A law enforcement officer would have the ability to 
routinely inspect all records related to metal sale 
transactions without a court order;
    Require anyone convicted of metal theft to pay restitution 
for the materials stolen and for any collateral damage caused 
by the theft;
    Metal dealers who break the law face suspension or 
revocation of their business license and increased fines and 
jail time;
    Require metal dealers to obtain a thumbprint, photo, or a 
video and/or a copy of a valid Government-issued ID of the 
seller;
    And impose increased criminal penalty for metal theft 
relative to the amount of damage rather than the amount stolen.
    With only some States with metal theft laws, sellers are 
opting for neighboring States so they can get paid immediately. 
Similarly, the thieves are going out of State, too, which 
undermines the intent of the law in the States that have 
responded by enacting a strong State metal theft law. A Federal 
law is needed to prevent criminals from stealing metal and 
transporting it for sale in nearby States. Moreover, scrap 
metal prices will climb again 1 day, and metal theft will rise 
with them unless Congress acts.
    Thieves have caught on: There is metal everywhere and much 
of it is, understandably, unguarded. Copper cable thefts can 
cause electric and telephone service outages for entire 
neighborhoods, impacting hundreds or even thousands of homes. 
Power outages can knock out traffic signals, posing a serious 
traffic safety threat. And in the event of an emergency, 
affected telephone customers are not able to call 911 for 
assistance.
    As you can imagine, stealing telephone and electric service 
cables presents an incredibly hazardous situation for residents 
and our communities. This issue goes beyond being just a simple 
property crime because of the impact it has on our 
neighborhoods, businesses, and homeland security. Not only are 
these crimes destroying property and causing millions of 
dollars in damages, they are endangering lives.
    Moreover, metal theft has become a serious crime that is 
often related to other crimes like illicit drug activity, 
especially methamphetamine with addicts who are looking for 
fast cash to maintain their drug addictions. Of course, not all 
meth addicts are metal thieves and, likewise, not all metal 
thefts track back to meth addicts, but we believe that there is 
a distinct connection.
    We would also like to note that many scrap metal businesses 
already follow the rules and cooperate with law enforcement, 
especially in Utah, watching for unusual loads of metal brought 
in by customers. We emphasize that these businesses serve a 
legitimate need in the marketplace, and we do not intend to 
suggest that all scrap metal businesses engage in fraudulent 
transactions. Yet it has become apparent that the absence of 
regulation created an atmosphere conducive to facilitating such 
unlawful activity, which is extremely difficult for us in law 
enforcement to detect and control.
    Accordingly, we believe that Federal law will help get 
other States and companies that might not be where they need to 
be keep better track of who brings in metal and what they are 
offering as scrap. We simply cannot continue to accept 
``business as usual'' given the seriousness of metal theft and 
its impact on public safety. With cooperation and assistance 
from businesses, our citizens, and law enforcement, we can be 
proactive in preventing a potential public safety disaster in 
our communities.
    This legislation gives valuable tools to law enforcement to 
combat metal theft, a crime that is not only costly to the 
taxpayers but also seriously compromises public safety, 
homeland security, and endangers people's lives. The Secondary 
Metal Theft Prevention Act of 2009 is a necessary step forward 
in keeping our neighborhoods safe across the Nation.
    I would like to thank both of the Senators for their 
leadership on this issue and for the opportunity to present our 
views before the Subcommittee today. Thank you very much.
    [The prepared statement of Mr. Kennard appears as a 
submission for the record.]
    Senator Klobuchar. Thank you.
    Mr. Sparby.

  STATEMENT OF DAVID M. SPARBY, PRESIDENT AND CHIEF EXECUTIVE 
  OFFICER, NORTHERN STATES POWER-MINNESOTA, ON BEHALF OF XCEL 
  ENERGY AND EDISON ELECTRIC INSTITUTE, MINNEAPOLIS, MINNESOTA

    Mr. Sparby. Thank you, Senators Klobuchar and Hatch. We 
appreciate the opportunity to testify today on this important 
issue--important to both preserving electric reliability as 
well as public safety. The failure to address this issue would 
leave a significant gap in our effort to protect our 
infrastructure. I am Dave Sparby, President and Chief Executive 
Officer of Northern States Power. We serve about 1.5 million 
electric customers in Minnesota and North and South Dakota. 
Xcel Energy, our parent company, has operations in eight 
Midwest and Western States. I am also appearing today on behalf 
of Edison Electric Institute.
    Madam Chair, as you noted, over the last several years 
metal theft from electric utilities has been on the rise. And 
although the cost to the utilities of the loss of the metal has 
been significant, it is not the most important reason to pass 
some of the legislation being proposed. While the cost of the 
metal is high, the threat to public safety, the impact on our 
infrastructure, the cost of replacing the damaged property is 
hundreds of times greater than the metal lost. In Minneapolis, 
for example, thieves broke into an underground feeder vault 
near the university. After cutting through an energized feeder, 
they caused an explosion in the vault. Both men were severely 
burned. The feeder line went to the university substation, 
causing the substation to fail and creating an outage at the 
University of Minnesota Hospital where eventually patients 
needed to be evacuated. Now, although I do not know the total 
cost of the metal taken, the cumulative damage to the hospital, 
the patients, the substation, the vault, and the victims is 
many times that amount.
    In a similar case, another copper thief broke into an 
underground feeder vault with a portable metal saw. When he 
began to cut into the feeder, a similar explosion resulted, 
creating a systemwide failure. This outage caused the city of 
Minneapolis' water treatment plant, among other entities, to 
shut down for several minutes until another alternative power 
source was identified. Once again, the impact on the community 
was far disproportionate to the metal taken.
    Now, the current economy, the price of the metal, and the 
lack of regulation have led to an increase in metal theft in 
other areas as well. As you noted, Madam Chair, vacant homes in 
the Midwest have been condemned and even destroyed as a result 
of the copper wiring and natural gas pipes being cut out. 
Recently, our fire chief testified that citizens as well as 
firefighters are constantly endangered by the conditions of 
these houses.
    Now, although I have talked about events in Minneapolis as 
well as the Midwest this afternoon, the consequences of metal 
theft have been experienced by other utilities across the 
country. Federal legislation is needed. The theft of metals for 
cash is a national issue, and it is not confined to an 
individual utility or State. State laws vary significantly. 
Some of the States we serve have laws, while others do not. The 
only effective way to address this nationwide problem is 
through Federal legislation.
    Now, Senate bill 418 would make it possible for law 
enforcement officials to effectively investigate incidences of 
metal theft. Today, many recyclers do not have to keep 
meaningful records in some of the States we serve. This 
legislation would also allow State attorneys general to bring 
actions to enforce this act, another significant advantage. We 
believe the elevation of this crime to a Federal level would 
also heighten its significance to local law enforcement.
    Finally, we understand that there may be additional 
approaches to addressing this problem, including language that 
would increase penalties, establish a nationwide data base, and 
require the mandatory reporting of these crimes. Regardless of 
how many of these additional approaches are taken, the 
objective should be to provide law enforcement with as many 
tools as possible to combat this crime. Let us not make the 
effort to protect our infrastructure from cyber attacks and 
from terrorism and fail to remove the incentive to steal a few 
feet of copper that will do the same amount of harm.
    Thank you.
    [The prepared statement of Mr. Sparby appears as a 
submission for the record]
    Senator Klobuchar. Thank you very much.
    Mr. Lewon.

 STATEMENT OF MARK LEWON, VICE PRESIDENT FOR OPERATIONS, UTAH 
  METAL WORKS, SALT LAKE CITY, UTAH, ON BEHALF OF UTAH METAL 
  WORKS AND THE INSTITUTE OF SCRAP RECYCLING INDUSTRIES, INC.

    Mr. Lewon. Thank you and good afternoon, Senator Klobuchar, 
Senator Hatch. My name is Mark Lewon, and I am the Vice 
President of Utah Metal Works in Salt Lake City. We specialize 
in processing non-ferrous cable, wire, and other materials. 
Thank you for the opportunity to testify today. I am 
representing the more than 1,500 member companies of the 
Institute of Scrap Recycling Industries, or ISRI, the trade 
association that represents processors, brokers, and consumers 
of recyclable paper, glass, plastic, metals, rubber, textiles, 
and electronics. Last year, our industry shipped more than $86 
billion worth of scrap commodities.
    I would like to start by sharing with you a true story of 
an exchange that happened just 2 weeks ago at a scrap yard in 
the Midwest. It helps illustrate the effort our industry is 
making to address the problem of metals theft and the critical 
role that communications and cooperation play in the problem's 
solution.
    A truck full of scrap entered the yard and proceeded to the 
scale. The load was weighed and inspected. Certain information 
was documented. When it was safe, the scale operator called the 
police. ``I may have found some metal that has been reported 
stolen.''
    ``Why do you think it is stolen? '' asked the officer.
    ``I saw something on ScrapTheftAlert.com that came in.''
    ``You are kidding,'' said the officer. ``You got this from 
a scrap theft alert? ''
    ``Right.''
    ``Can you identify the guy? ''
    ``I have his license plate number and a copy of his 
driver's license.''
    ``Can you hold the material for me so I can take a look at 
it? ''
    ``We have already set it aside.''
    ``You have done my job for me. Thanks,'' the officer 
responded.
    Senators, our system works. The ScrapTheftAlert.com system, 
developed by ISRI in 2006, alerts scrap yards and law 
enforcement in a 250-mile radius of a theft, listing the 
characteristics of the metal, providing photos, and more. The 
system is currently used by more than 700 law enforcement 
officers throughout the country. There is no charge for police 
and victims to access the system and report thefts. Law 
enforcement officers who use ScrapTheftAlert.com have only 
praise for it.
    But ISRI's theft alert system is not the only thing the 
scrap industry is doing to fight metals theft. In 2006, ISRI 
developed recommended practices which guide our members on how 
to identify stolen property, document their purchases, validate 
a seller's identity, install cameras in the scrap yard, and 
catch thieves.
    ISRI pioneered the use of local or regional collaborative 
coalitions of victims, law enforcement, prosecutors, and 
recyclers to help prevent metal theft and catch criminals. No 
technique works better. I work closely with the coalition in 
Salt Lake City and County. Crime is down, and we catch and 
prosecute metal thieves. ISRI has also established a coalition 
of stakeholder associations to share ideas and intelligence.
    ISRI members recognize their key role in addressing metal 
theft. There are no easy solutions, but our expertise has 
taught us that the best way to approach the crime of metal 
theft is through ongoing communication--between recycles, law 
enforcement, victims, and prosecutors. In fact, last year, ISRI 
hired a former metals theft detective to help coordinate our 
work with law enforcement nationwide. He now spends his time 
reaching out to law enforcement in communities throughout the 
country, discussing collaboration and techniques and tactics 
that work.
    Federal legislation to address metal theft must deal with 
prevention, including strong penalties for thieves. Senators, 
it is also important to note that metal theft will not cease 
simply by banning the customary use of cash. Thieves will just 
find an underground way to move their stolen metals.
    Much as we would like to believe it so, simply enacting a 
new law will not cause resource-strapped law enforcement 
agencies to suddenly make metal theft a priority. Nor will it 
cause prosecutors to go after the thieves. Nor will it stop 
thieves from crossing State lines, unless you include a 
preemption provision in a bill that takes away their incentive 
to do so.
    Senator Hatch, Senator Klobuchar, I ask you to work with me 
and my colleagues. Let us get into a room with law enforcement, 
including people like Fred Burmester, Salt Lake County's 
Assistant District Attorney, and others who have worked the 
front lines with us. And let us draft a bill that will work to 
solve this problem.
    We look forward to working with you to help stem this 
problem that is plaguing communities in Utah, in Minnesota, and 
throughout the country. Thank you.
    [The prepared statement of Mr. Lewon appears as a 
submission for the record.]
    Senator Klobuchar. Thank you very much.
    Senator Hatch.
    Senator Hatch. Well, thank you, Madam Chairman. I 
appreciate the testimony of every one of you here today, and we 
will look forward to having your ideas to see if we can improve 
this bill. But I am very concerned about these matters.
    I have to leave, but I wanted to hear all your testimony, 
and any suggestions you have for us on this bill, we will pay 
attention to your testimony, but we would love to have any 
suggestions we can get. This is a serious problem throughout 
the country, and not all scrap dealers are as good as you are. 
And that is one of the problems, to be honest with you.
    This has been a very, very good panel, and I am very 
appreciative. We are in the middle of a bunch of things, and I 
have total confidence in Senator Klobuchar. She has added a 
great deal to the Judiciary Committee and I think a great deal 
to the U.S. Senate. So I am sure she is going to work you all 
over very, very well.
    [Laughter.]
    Senator Hatch. But if you will forgive me, I think I am 
going to have to go. Thank you all. I really appreciate your 
being here.
    Senator Klobuchar. Thank you very much, Senator Hatch. I 
appreciate it.
    All right. Well, thank you all for your testimony. It was 
very interesting. I actually had not heard some of those 
stories, especially yours, Mr. Sparby, of just how theft of 
just a little bit of copper can cause such a breakdown in some 
of our infrastructure. So I appreciated that.
    I guess I would start with you, Chief Dohman. We have 
talked about the bill that Senator Hatch and I have, and 
similar to some of the State laws that you see. Do you see a 
need to do this nationally and not just on a State-by-State 
basis?
    Chief Dohman. Thank you, Senator Klobuchar. I really do. I 
believe that we have enjoyed the--``enjoyed'' probably is not 
the best word, but we have benefited from the tougher 
restrictions on scrap metal dealers in the State of Minnesota. 
But as I testified to, we know that scrap metal thieves or the 
people that work for them can go to the next border, because 
many States do not have the tight regulations and restrictions 
that the State of Minnesota does. And so I think it highlights 
that it is a significant issue around the country, and not just 
in our State. And I do believe that it would be a deterrent if 
it was on the Federal level and that all States could use it in 
the event that they do not have a State law themselves.
    Senator Klobuchar. Thank you.
    Sheriff Kennard, would you agree with the same thing?
    Mr. Kennard. Yes, I do indeed, and I also want to 
compliment Mr. Lewon for his comments, because we in law 
enforcement stand ready to work with you and him, and I hope 
that you take advantage of us in the National Sheriffs' 
Association. We represent all 3,088 sheriffs in the country, 
and they are the chief law enforcement officers in each county 
representing the counties, and with the Major City Chiefs and 
Major County Sheriffs, you have got just about every law 
enforcement group in the country that you can be dealing with. 
So I very much so believe that it needs to go on a national 
level.
    Senator Klobuchar. How about the idea--I was struck by Mr. 
Sparby's testimony and Mr. Coffey's testimony of just some of 
the ramifications of this when it happens. How about the idea 
of some kind of increased criminal penalties for this kind of 
activity?
    Mr. Kennard. Well, I spoke about that because most criminal 
penalties, especially dealing with property crimes, are dealt 
with around the value of the crime itself, the property stolen 
or the amount of money stolen. And if we take into 
consideration the amount of damage done on infrastructure, this 
could be just something that should really deter some people if 
they understand what is going on.
    But now, having said that, there are some of these 
criminals that are not going to understand anything in this. 
They are after the next quick fix, and it is going to take one 
or two hammers before they get the message.
    Senator Klobuchar. Chief Dohman, the idea of the increased 
criminal penalties.
    Chief Dohman. You know, I believe that the increased 
criminal penalties for all people involved, I think one of the 
gentlemen testified here to penalties for not only the thief 
but also the seller, and I think that any increased penalties 
for anybody involved in this certainly would be a deterrent.
    Senator Klobuchar. All right. Very good.
    I think about when we have task forces and things how we 
could better improve working across State lines on these kinds 
of issues. Do you get help out there when you are trying to 
solve some of these cases? Which it sounds like your cases were 
specifically in Minnesota for the most part.
    Chief Dohman. Yes, our cases were specifically in 
Minnesota. I think that any legislation that can enhance the 
ability for law enforcement to be able to communicate with each 
other, to be able to not only collect records but retain 
information, and then to be able to share it, you know, many 
times data privacy issues prohibit us from being able to share 
across borders, across counties, across cities even. And so any 
legislation that can enhance the ability to be able to share 
that information.
    We are lucky enough in Minnesota to have the Minnesota 
Crime Alert Network, that we are able to post data and share it 
across--but not all agencies. As we know, if you go to rural 
Minnesota or rural areas in many States around the country, 
they do not have either the technology or the ability to access 
those pieces of information. So anything that would help all 
agencies, whether it is a sheriff's office or whether it is a 
local police department, to be able to have the access to the 
information that is legally stored, the data stores, would 
benefit law enforcement.
    Senator Klobuchar. Thank you.
    Mr. Lewon, I also appreciated your words that you wanted to 
work with us on these bills, but one of the questions I have is 
you have these guidelines that you suggest, and some of them 
are actually things that are in our bill. And so that is why I 
do not quite understand--we would love to have you supporting 
our bill and with us there. I think it would go a long way. And 
so I do not understand why you would want some of these things 
to be voluntary but then not mandated.
    Mr. Lewon. Some of the things that we see that we really 
like in your bill, as you mentioned, are on page 3 of my 
written testimony, and we do talk about records retention. We 
do not have any qualms about doing that. That is exactly the 
right thing to do, a camera or whatever we can do video-wise to 
photograph sellers of material.
    But the biggest problem we see with the bill as it is 
written--and we can work it out, but we would like to see the 
penalties enhanced against the thieves, who are the ones 
causing the problems, not the recyclers.
    Senator Klobuchar. Both Senator Hatch and I have made 
statements that we do not see it that way. We just see that 
these--and we would certainly look at the criminal penalties, 
but we think these measures would help us to catch them. That 
is all we are trying to do, is to catch them, including the 
check requirement. Again, easier to catch them, especially when 
you have a repeat person that is going back and back and back, 
probably pretending they are someone else. I would think that 
would be helpful.
    So I just want to make that clear, that we are not trying 
to accuse the scrap metal dealers of any crimes here. We are 
simply trying to get the information that we can get so that we 
can help law enforcement to solve them.
    Mr. Lewon. Well, I think if you have the repeat customers, 
what we can do is this is a communication issue, where, OK, we 
have got the suspect here, come and get him.
    Senator Klobuchar. You may not always know. It maybe--well, 
maybe you want to answer that. I am putting my law enforcement 
hat on instead of letting the law enforcement experts answer 
this question. Chief Dohman, do you want to respond to that?
    Chief Dohman. Senator Klobuchar, in my testimony, I talked 
about the Grand Rapids case, and you alluded to it in your 
opening statements, and that is that the thief had established 
a relationship with the scrap metal dealer, had come there very 
often over a 3-year period of time, to the tune of over 
$300,000 worth of scrap metal theft, and that scrap metal 
dealer did not report, did not--participated, actually, in the 
criminal activity, we believe, rather than report the thief. 
And so in a perfect situation in a perfect world, that might 
work just absolutely fine, but not in all cases will that work.
    Senator Klobuchar. Sheriff Kennard, do you want to respond 
to that?
    Mr. Kennard. Well, he is right on if it is a major 
situation, and if we have manpower available to respond, 
needless to say we want to put somebody behind bars and catch a 
crook as fast as anybody. And we will and do respond if at all 
possible--but if somebody has made a call and said, ``We have 
got a young man here that has got $200 worth of stolen 
property,'' there may be a major situation that is preventing 
somebody from getting there as fast as they want.
    We surely encourage and want to participate and work with 
those dealers.
    Senator Klobuchar. Thank you.
    Mr. Coffey, you mentioned that Qwest has developed a copper 
theft strategy that includes liaison with law enforcement 
agencies in support of investigations, particularly in high-
theft areas. Can you tell me more about the partnerships? And 
where are the high-theft areas? Are they in urban areas, or 
where do they tend to be?
    Mr. Coffey. Unfortunately, Senator, the high-theft areas 
will shift from time to time. When law enforcement intervention 
is successful, generally the problem, at least for a period of 
time, dissipates, and it will shift to another area. We do see 
more of a problem in rural areas from our perspective.
    The partnerships that we have developed with law 
enforcement have been successful, and I think that the 
Longview, Washington, case exemplifies that. In that instance, 
we worked with the Kelso Police Department in Washington, the 
Cowlitz County Sheriff's Department in Washington, and the FBI 
to seek both Federal and State prosecution of those responsible 
for stealing significant amounts of copper cable.
    Senator Klobuchar. And do you think it would be helpful to 
have some increased penalties and the other thing we are 
looking at--I would look at it two ways. One is the penalties, 
but the other is to try to stop them from basically selling 
their wares in the first place.
    Mr. Coffey. I agree, Senator. I think that the mandatory 
compliance is very important, and the criminal penalties 
associated with the failure to comply or to violate the law 
will certainly be a stern deterrent.
    Senator Klobuchar. I was thinking of this, Sheriff and 
Chief Dohman, as when I am thinking about the meth labs that we 
had for a while. They were rampant in our State, and, yes, we 
did increase penalties. But the other thing we did is we put 
some limits on where the ingredients could come from and 
Sudafed and the rules about where you could put things out. And 
at first, the pharmacies, some of the industry groups objected. 
They felt in a similar way that they were somehow being blamed 
for this. But we saw a dramatic decline--maybe you want to talk 
about it, Chief--after we did that.
    I will never forget testifying at the legislature about 
this, and we actually had a case I was able to show, because 
Iowa had enacted stronger laws, and we had these kids that were 
picked up buying a bunch of ingredients for meth labs. And they 
said, ``Well, yeah, we are from Iowa, but we knew we could get 
in trouble down there, so we did it up in Minnesota.'' And it 
was another example where going at it at its root cause, 
certainly not blaming pharmacies across the country but putting 
some limits on it, made a major difference. Do you want to talk 
about that, Chief?
    Chief Dohman. Senator Klobuchar, yes, that is a perfect 
example or analogy of going to the root of the problem. I 
believe that law enforcement has developed much greater efforts 
in working with the industry on many different issues, and that 
is one of the things that we did with when we were experiencing 
meth labs, not only in rural Minnesota but also in the 
metropolitan area. And certainly the law that was passed 
reduced the number of meth labs that we are seeing. The sellers 
and the users are finding other places to purchase it now, but 
it is not being manufactured. And so the risk to public safety 
has been significantly reduced.
    I think that forcing or mandatorily forcing some 
restrictions on the scrap metal dealers is a good thing, but it 
does not mean that law enforcement will not continue to work 
with the industry to build the relationships and to work within 
those means of the tighter regulations.
    I would just like to offer--I think someone testified here 
about the ability for law enforcement to view records at the 
scrap metal dealerships without court order or without a search 
warrant. We have that ability in Minnesota, and that is another 
avenue that we can use to develop relationships with scrap 
metal dealers in our communities and in the rural areas.
    Senator Klobuchar. Do you want to respond, Mr. Lewon?
    Mr. Lewon. Yes, there are a couple points. I think the 
point about viewing records is really a non-issue with us 
because that is part of Utah State law, and frankly we prefer 
that you do not come and bust down our doors to come view the 
records, because it is a non-issue.
    Senator Klobuchar. As a sheriff, I would not want him at my 
door.
    [Laughter.]
    Mr. Lewon. If he was not such a good guy.
    A couple of points that I think are important, where I do 
not want the law to go and catch people who are unintentionally 
buying material that is stolen, because, unfortunately that 
happens. But if there are people that are knowingly and 
intentionally buying scrap metal, throw the screws to them. We 
do not have a problem with that. But when you write the laws so 
tightly that you start to affect people particularly with cash 
provisions--there are 10 million people that are citizens of 
the United States--I am not talking about non-citizens--that do 
not even have a bank account. Why restrict them on the amount 
of cash? That is their bargain or their method of exchange. And 
they are out there. So that is something that needs to be 
understood.
    We have talked about crossing State lines, and this is 
really, I think, one of our big issues, that people are 
figuring out that maybe the laws in one State are less 
stringent than in another, and this is why we do not ask for a 
lot of--or you do not see a lot of people asking for preemption 
in a lot of places, and I think that Congress is reluctant to 
give it. But I think in this instance, you really need to take 
a look at it because I think that it would go a long way in 
solving a problem.
    Senator Klobuchar. Mr. Coffey, do you think there is 
sufficient evidence out there, information about the crime of 
metal theft? I was thinking for me, then having this hearing 
and having worked on this bill, some of this was new to me.
    Mr. Coffey. That is true, Senator. I think that it goes in 
spurts. When the problem is a big problem for a particular 
community, you tend to see a lot more light shed on the topic. 
When it shifts to another community, then the original 
community shifts to other areas that are more important to 
them.
    I would like to emphasize one thing, though. When we look 
at federal legislation regarding this crime problem, and we 
talk about going from state to state, I think it is also 
important to consider that these crimes, as you have heard this 
afternoon, they do impact the critical infrastructure of the 
United States, and they do have some effect or disruption on 
instrumentalities of interstate commerce. And so it is not only 
when a thief goes interstate with stolen metal. I think that 
just that level of disruption should be considered in this 
federal legislation.
    Senator Klobuchar. One thing I was curious about, Mr. 
Coffey. How did this usually get reported to you, by 
technicians, you know, when houses have not blown up, but they 
find out things are wrong?
    Mr. Coffey. Right. There are two ways that we generally get 
notified that there is a disruption: either a customer will 
somehow get word to us, usually not over the cut telephone 
line, obviously; but the second instance is some of our lines 
are monitored so that we can determine in our network 
operations center when a line signal has been disrupted.
    Senator Klobuchar. Thanks.
    Mr. Sparby, how is it usually reported to you when it is 
not an employee stealing it from you?
    Mr. Sparby. We have it reported by field personnel, but 
oftentimes it goes unnoticed for a considerable length of time 
with examples like when ground wires are taken from 
transformers in rural areas and, you know, they are later 
struck by lightning maybe 1 or 2 months, and because the ground 
wires which conduct the lightning away from the transformer are 
missing, you know, the transformer will be destroyed. And in 
those kind of cases, we find out about it literally days, 
weeks, or months after the crime itself.
    Senator Klobuchar. I discussed with Mr. Coffey some of the 
statistics, and you had some pretty staggering statistics in 
your written testimony: the fact that 95.1 percent of utility 
companies had experienced copper theft in the past year; that 
86.6 percent of utility companies had a process in place to 
track incidents of copper theft; and yet there were more than 
50,000 incidences, that we know of, of copper theft in the last 
year.
    Could you talk a little bit about how you get these--how 
does your utility company track copper theft? And with such a 
high percentage of companies tracking incidences, how come so 
much metal theft is still occurring?
    Mr. Sparby. Chair Klobuchar, we have a very difficult 
infrastructure to protect. Xcel Energy alone has more than 
300,000 conductor miles of electric line that stretch from 
Minnesota all the way down to new Mexico, more than 1,100 
substations also spread throughout those eight States. So we 
have done a lot to incorporate electric and physical security, 
but to be sure, it must be coupled with legislation like we 
have here today in order to truly combat that problem.
    And in terms of the statistics, we work very hard as a 
utility to share information with operating companies, with 
sister utilities like Qwest. But truly there is a need for 
information to be shared on a multiregional basis, and that 
might best be done by an agency like the FTC or the FBI.
    Senator Klobuchar. You mentioned you have been giving 
rewards out sometimes to catch people. Has that been helpful?
    Mr. Sparby. Well, our experience is that that has not 
been----
    Senator Klobuchar. Or some electric--I do not know if you 
have.
    Mr. Sparby. That has not been particularly helpful for us. 
Our best efforts have been to work with the local sheriff's 
office or other law enforcement agencies.
    Senator Klobuchar. Oaky. You also mentioned that thieves 
are more likely to target utilities that are located in cities 
or suburbs rather than rural areas. Is that correct?
    Mr. Sparby. Yes, it is, and that is not to suggest that it 
does not impact our rural facilities. It is just different 
facilities. In rural areas, they tend to hit us more at our 
construction sites at the end of the system where we are 
building the system. In the cities, it is more substations and 
warehousing facilities. But it is definitely a problem in both 
areas.
    Senator Klobuchar. Thank you. Do you want to end just by 
saying why you think this Federal legislation is so important?
    Mr. Sparby. This legislation really works to prevent an 
impact that is often hidden from the members of this panel and 
the Committee, and that is the tremendous impact on our 
customers and the grid that the utility and the city and county 
officials often have to respond to whose cost is never really 
tallied and included in the cost of this theft.
    Senator Klobuchar. Oaky. Thank you.
    Does anyone else have anything they want to add? Mr. Lewon.
    Mr. Lewon. Thank you. Just one other thing, and that is, 
scrap metal recyclers like ourselves are victims of metal 
theft, too.
    Senator Klobuchar. That is right.
    Mr. Lewon. Because they do cut our fences and come in and 
take stuff. And so I do not want you guys to think that we are 
not impacted by it. We are. But we stand ready to come and work 
with you and put together a bill that will affect it and help.
    Senator Klobuchar. I am very glad about that, and I think 
this has been really helpful. We will have some good testimony 
and stories that we can tell and the staff can talk to our 
colleagues about so that we will be ready to go to get a bill 
done. So we are looking forward to working with all of you. 
Thank you. Welcome to your family, Chief Dohman. Who is here 
from your family? You can get it on the record.
    Chief Dohman. My daughter, who just graduated from high 
school, Kelly.
    Senator Klobuchar. She just graduated from high school?
    Chief Dohman. She just graduated from high school, and she 
has kind of the summer off before leaving for college, and she 
joined me today.
    Senator Klobuchar. What is her name?
    Chief Dohman. Kelly Dohman.
    Senator Klobuchar. Where are you, Kelly? There she is back 
there. Oh, I can see you look like your mother.
    [Laughter.]
    Chief Dohman. She hears that a lot. That is good some days, 
and some days not.
    Senator Klobuchar. It must be a little hard growing up as 
the police chief's daughter, huh?
    Chief Dohman. We have heard those two things.
    Senator Klobuchar. Very well. Thank you, everyone. I want 
to particularly thank my staff, Jonathan Becker, my counsel, 
who has worked on this extensively. Maybe he is ready to go 
into scrap metal dealing when he is done. And also Paige 
Herwig. So thank you to them and thank you to all of you. We 
look forward to working with you.
    The hearing is adjourned.
    [Whereupon, at 3:40 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions follow.]


    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
